Michael A. Cantrell
Assistant Solicitor General

Direct Dial: (501) 682-2007
michael.cantrell@arkansasag.gov

September 9, 2020
Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Gardner v. Arkansas, No. 20-5517 ***CAPITAL CASE***

Dear Mr. Harris:
I write on behalf of respondent to request a 45-day extension of the September 28, 2020
deadline for filing a response to the petition for a writ of certiorari in this matter. With this
extension, the response would be due on November 12, 2020.
A 45-day extension is reasonable and necessary. The Solicitor General Unit of the
Arkansas Attorney General’s Office has primary responsibility for drafting briefs in opposition
in this Court. The Unit only recently assumed responsibility for this matter and will require
additional time to become sufficiently familiar with the issues and proceedings below to prepare
a response. Additionally, that Unit is responsible for a number of other matters, including oral
argument before this Court in Rutledge v. Pharmaceutical Care Management Association, No.
18-540, on October 6, and preparation of responses to petitions for a writ of certiorari in
Whiteside v. Arkansas, No. 19-8668 (due November 20), Johnson v. Arkansas, No. 20-48 (due
September 18), and Reid v. Arkansas, No. 19-8331 (due September 10). The Unit is also
preparing for an oral argument before the Eighth Circuit on September 23 and is devoting
significant resources to emergency litigation related to the upcoming election and the COVID-19
pandemic in Arkansas.
Petitioner does not oppose this request.
For these reasons, respondent respectfully requests that the Court grant an extension of
the response deadline.

323 Center Street, Suite 200, Little Rock, Arkansas 72201
Office: (501) 682-2007 | Fax: (501) 682-8084

Gardner v. Arkansas, No. 20-5517
September 9, 2020
Page 2

Sincerely,
/s/ Michael A. Cantrell
Michael A. Cantrell
Assistant Solicitor General
cc: Teri Lisa Chambers, Teri.Chambers@arkansas.gov, Counsel for Petitioner

